- AfpEm.i x, - A

TT .
FILED
United States Court of Appeals
Tenth Circuit
UNITED STATES COURT OF APPEALS
December 23, 2020
TENTH CIRCUIT
Christopher M. Wolpert
Clerk of Court

HILLIARD A. FULGHAM,
Petitioner - Appellant,
v.

No. 20-5008
(D.C. No. 4:17-CV-00010-CVE-FHM)
(N.D. Okla.)

SCOTT CROW, Director
Respondent - Appellee.

ORDER DENYING CERTIFICATE OF APPEALABILITY*
Before HOLMES, BACHARACH, and MORITZ,

Circuit Judges.

Pro se Petitioner-Appellant Hilliard A. Fulgham1
appealability (“COA”) to challenge the district
writ of habeas corpus under 28 U.S.C. § 2254.
IWO claims: (1)

seeks a certificate of

court’s denial of his petition for a
His application for a COA raises

alleged violalioa of his right, under the Interstate A

greement
on Detainer, Ac, (“IADA”), Okc. Stat. tie. 22. S 1347, based on Oklahoma’,
This Order is
for^'t ^t*16 CaS^’ rCS jhillnnia^andiAdlatertd estoppe**)? m^be^itet^^toweve/

and Ten® cSm,VESee3C20n,S“'en'W“h F“to*1
liberally,

“Appellate Procedure 3i,

H."u sTSoK‘f’’

“T'

role of advocate ” l lj c ,
(1D°th,Clr- 2010>> but “we will "°t ‘assume the
2« tw !T V United States v, Parker, 720 F.3d 781, 784 n.l (10th Cir
2013) (quoting Yang v. Archuleta, 525 F.3d 925, 927 n.l (10th Cir 2008)) '

purported failure to timely bring him to trial, and (2) an alleged Sixth Amendment
violation based on ineffective assistance of trial counsel. Exercising jurisdiction
under 28 U.S.C. § 1291, we DENY Mr. Fulgham’s application for a COA as to
each claim and DISMISS this matter.
I
In April 2015, Mr. Fulgham was found guilty on two counts of first-degree
murder and sentenced to life imprisonment without parole in relation to the
stabbing deaths of two women in Tulsa, Oklahoma. On direct appeal to the
Oklahoma Court of Criminal Appeals (“OCCA”), Mr. Fulgham argued his
conviction should be overturned because (1) the trial court violated his rights
under the IADA by failing to bring him to trial within the statute’s 120-day
timeframe; and (2) his trial counsel rendered ineffective assistance by failing to
raise this IADA argument before trial. See Fulgham v. State, 400 P.3d 775, 778,
780 (Okla. Crim. App. 2016).2
Mr. Fulgham’s first appellate argument turned on Article IV(c) of the
IADA. Under Article IV(c), Mr. Fulgham’s trial was to commence no later than
120 days after he was transferred to Oklahoma from Mississippi, absent a
continuance “for good cause.” See Okla. Stat. tit. 22, § 1347 (“[TJrial shall be
commenced within one hundred twenty (120) days of the arrival of the prisoner in

Mr. Fulgham does not include the OCCA ruling in the record, but we
take judicial notice of the ruling as it appears on Westlaw.
2

the receiving state, but for good cause shown . . . , the court. . . may grant any
necessary or reasonable continuance.”). Further, Article V(c) of the IADA
specifies that charges “not brought to trial” within this 120-day timeframe “shall”
be dismissed “with prejudice.” Id. Mr. Fulgham was transferred to Oklahoma on
September 18, 2013, but his trial did not commence until April 6, 2015—565 days
after his arrival in Oklahoma. Based on this delay, he argued Oklahoma’s
criminal charges against him should have been dismissed pursuant to the IADA
and, therefore, his conviction should be overturned.
The OCCA rejected this argument, pointing out that Mr. Fulgham never
raised any IADA-related issues prior to trial; indeed, the trial court raised
questions pertaining to the IADA at Mr. Fulgham’s sentencing hearing, “well
after the completion of his jury trial.” Fulgham, 400 P.3d at 778.3 By failing to
invoke his IADA rights pre-trial, Mr. Fulgham “acquiesced to treatment
inconsistent with” the statute’s time limitations and, thus, “waived any rights
granted to him under the IAD[A]—along with his ability to subsequently
complain such rights had been violated when he proceeded to trial.” Id. at
779-80.

At Mr. Fulgham’s initial sentencing hearing, the trial court noted it
“discovered a Request for Temporary Custody filed pursuant to the IAD[A] in the
record” and “directed the parties to ‘look into this’ and specifically research the
issue of waiver. Fulgham, 400 P.3d at 778. When Mr. Fulgham was eventually
sentenced, the trial court concluded that he had “effectively waived” his IADA
rights. Id. at 778-79.
3

The OCCA also rejected Mr. Fulgham’s ineffective-assistance-of-counsel
argument. See id. at 780-81. At bottom, this argument was entirely speculative:
in essence, Mr. Fulgham argued that, had his counsel asserted his IADA rights
before trial, his case would have been dismissed, and that by failing to do so, his
counsel rendered constitutionally deficient performance and prejudiced his
defense. But the OCCA refused to “blindly make the leap necessary to find
prejudice in [Mr. Fulgham’s] case based on speculation alone.” Id. at 780.4
Thus, because Mr. Fulgham “failed to present any evidence demonstrating the
reasonable probability of a different result in the proceedings,” he did not
establish ineffective assistance of counsel. Id. at 780-81.
Mr. Fulgham reasserted these arguments in his § 2254 petition, which the
district court denied. While the district court agreed with the OCCA that Mr.
Fulgham waived his IADA claim, it noted additionally that Mr. Fulgham was not
automatically entitled to habeas relief based on a bare IADA violation. Rather, he
needed to show that such a violation prejudiced his defense or constituted a
miscarriage of justice. Having failed to make this showing, the court reasoned
that Mr. Fulgham was not entitled to habeas relief based on his IADA claim. The

Even were it to speculate, the OCCA noted that it was not
“unrealistic to assume that the trial court would have advanced the date of [Mr.
Fulgham’s] trial or otherwise ensured a proper record was made establishing good
cause for delay,” had Mr. Fulgham or his counsel “flagged th[e] issue some time
prior to trial”—“either of which would have satisfied” the IADA’s requirements.
Fulgham, 400 P.3d at 780.
4

court also rejected Mr. Fulgham’s ineffective-assistance-of-counsel claim, as Mr.
Fulgham failed to “demonstrate^ a reasonable probability that the trial court
would have dismissed [his] case” and, therefore, failed to show the requisite
prejudice. R., Vol. I, at 251 (Dist. Ct. Order, filed Dec. 31, 2019). Finally, the
district court denied Mr. Fulgham a COA. Mr. Fulgham timely applied for a COA
before this court.
II
As a state prisoner proceeding under 28 U.S.C. § 2254, Mr. Fulgham must
obtain a COA to be heard on the merits of his appeal. See 28 U.S.C.
§ 2253(c)(1)(A); Miller-El v. Cockrell, 537 U.S. 322, 335-36 (2003). But he
cannot obtain a COA without making “a substantial showing of the denial of a
constitutional right,” 28 U.S.C. § 2253(c)(2), which requires him to “sho[w] that
reasonable jurists could debate whether (or, for that matter, agree that) the
petition should have been resolved in a different manner or that the issues
presented were ‘adequate to deserve encouragement to proceed further.’”
Miller-El, 537 U.S. at 336 (alteration in original) (quoting Slack v. McDaniel, 529
U.S. 473, 484 (2000)). In other words, Mr. Fulgham must show that the district
court’s resolution of his claims was “debatable or wrong.” Slack, 529 U.S.
at 484. This showing is “the only question” at the COA phase of habeas
litigation; “a merits analysis” is improper. Buckv. Davis, 137 S. Ct. 759, 773
(2017).
5

If a state court has already addressed the merits of a habeas petitioner’s
claims as the OCCA has done here with Mr. Fulgham’s claims—the “deferential
treatment of state court decisions” under the Antiterrorism and Effective Death
Penalty Act of 1996 (“AEDPA”) “must be incorporated into our consideration of
[the] petitioner’s request for a COA.” Dockins v. Hines, 374 F.3d 935, 938 (10th
Cir. 2004). “Under AEDPA deference, a federal court’s habeas review is limited
to determining whether the OCCA’s conclusion^ were] ‘contrary to, or involved
an unreasonable application of, clearly established Federal law, as determined by
the Supreme Court of the United States’ or whether [they] ‘w[ere] based on an
unreasonable determination of the facts in light of the evidence presented in the
State court proceeding.’” Lockett v. Trammell, 711 F.3d 1218, 1230 (10th Cir.
2013) (quoting 28 U.S.C. § 2254(d)). This standard is “highly deferential
[and] demands that state-court decisions be given the benefit of the doubt.”
Littlejohn v. Trammell, 704 F.3d 817, 824 (10th Cir. 2013) (alteration and ellipsis
in original) (quoting Woodford v. Visciotti, 537 U.S. 19, 24 (2002) (per curiam)).
III
Mr. Fulgham seeks a COA on the same two claims he raised before the
OCCA on direct appeal and before the district court in his habeas petition: (1)
an
alleged violation of his IADA rights and (2) an alleged ineffective assistance of
trial counsel, essentially for failing to raise the first claim pre-trial. In seeking a
COA, Mr. Fulgham largely rehashes his arguments made before the OCCA and
6

district court, while failing to substantively challenge the bases of the district
court’s denial of his habeas petition. We conclude that Mr. Fulgham is not
entitled to a COA.
First, as to Mr. Fulgham’s IADA claim, both the OCCA and the district
court essentially concluded that Mr. Fulgham likely waived this claim by failing
to raise it before his trial. Cf Reed v. Farley,, 512 U.S. 339, 352 (1994) (plurality
opinion) (“[W]e conclude that a state court’s failure to observe the 120-day rule
of IAD[A] Article IV(c) is not cognizable under § 2254 when the defendant
registered no objection to the trial date at the time it was set, and suffered no
prejudice attributable to the delayed commencement.”). But irrespective of any
possible waiver, Mr. Fulgham’s first claim does not warrant the issuance of a
COA because he has failed to make a threshold substantial showing that any
IADA-related error abridged or otherwise violated his constitutional rights.
We have held that “rights created by the [IADA] are statutory, not
fundamental, constitutional, or jurisdictional in nature”—and, thus, an “IAD[A]
violation might be ‘grounds for collateral attack on a ... conviction and
sentence’” only “if ‘special circumstances’ exist[] in a particular case.” Knox v.
Wyo. Dep 7 of Corrs., 34 F.3d 964, 967 (10th Cir. 1994) (quoting Greathouse v.
United States, 655 F.2d 1032, 1034 (10th Cir. 1981));

Raifsnider v. Colorado,

299 F. App’x 825, 827 (10th Cir. 2008) (unpublished) (“This circuit has held that
an IADA violation does not ‘rise to a constitutional deprivation’ without, at the
7

i

»•
A

i

t

*

f

j

very least, a showing that ‘actual prejudice’ resulted from the violation.” (quoting
Dobson v. Hershberger, 124 F.3d 216, 1997 WL 543370, at *2 (10th Cir. 1997)
(unpublished table decision))).
Special circumstances” or “actual prejudice,” in turn, require “a
fundamental defect which inherently results in a complete miscarriage of justice,
[or] an omission inconsistent with the rudimentary demands of fair procedure.”
Raifsnider, 299 F. App’x at 827 (alteration in original) (quoting Knox, 34 F.3d
at 968); see also Reed, 512 U.S. at 354 (recalling “the established rule with
respect to nonconstitutional claims” in habeas proceedings: “[N]onconstitutional
claims ... can be raised on collateral review only if the alleged error constitutes a
‘“fundamental defect which inherently results in a complete miscarriage of
justice.

9)999

(alteration and ellipsis in original) (quoting Stone v. Powell, 428 U.S.

465,477 n. 10 (1976))).
Even if we assumed that an IADA violation occurred, Mr. Fulgham “has
not alleged ‘any prejudicial error that qualifies as a fundamental defect which
inherently results in a complete miscarriage of justice, or an omission inconsistent
with the rudimentary demands of fair procedure’”—and, thus, “has no claim that
would support [habeas] relief.” Stallings v. Franco, 576 F. App’x 820, 822-23
(10th Cir. 2014) (unpublished) (quoting Knox, 34 F.3d at 968). Thus, Mr.
Fulgham cannot establish that the district court’s denial of his habeas petition

8

concerning his IADA claim is debatable or wrong. He is not entitled to a COA on
this claim.
Mr. Fulgham is likewise not entitled to a COA on his second claim, for
ineffective assistance of counsel. “Under [the governing Strickland] standard, in
order to prevail on a claim of ineffective assistance of counsel, Mr. [Fulgham]
must show both that his counsel’s performance ‘fell below an objective standard
of reasonableness’ and that ‘the deficient performance prejudiced the defense.’”
Byrd v. Workman, 645 F.3d 1159, 1167 (10th Cir. 2011) (quoting Strickland v.
Washington, 466 U.S. 668, 687-88 (1984)). “The [prejudice] prong of Strickland
. . . requires [Mr. Fulgham] to show ‘that there is a reasonable probability’”—not
“mere speculation”—“‘that, but for [his] counsel’s error, “the result of the
proceeding would have been different. »»»» Hooks v. Workman, 689 F.3d 1148,
1187 (10th Cir. 2012) (quoting United States v. Challoner, 583 F.3d745, 749
(10th Cir. 2009)). “Courts are free to address these two prongs [of deficient
performance and prejudice under Strickland] in any order, and failure under either
is dispositive.” Byrd, 645 F.3d at 1168.
We conclude that reasonable jurists could not debate the correctness of the
district court’s resolution of Mr. Fulgham’s ineffective-assistance claim and,
therefore, he is not entitled to a COA on this claim. That is true because the
district court rightly determined that the OCCA’s ruling on the prejudice prong of

9

Strickland was not contrary to, nor an unreasonable application of, clearly
established federal law.
More specifically, Mr. Fulgham merely speculates that the charges against
him would have been dismissed had his trial counsel raised the IADA’s time
limitations pre-trial. But this contention rests on an entirely hypothetical—and
implausible—factual scenario. As both the OCCA and district court pointed out,
there is every reason to believe that, had Mr. Fulgham’s trial counsel timely
invoked the IADA’s 120-day limit, the trial court would have made a good cause
finding for delay or otherwise accelerated Mr. Fulgham’s trial date. Mr.
Fulgham’s theory of Strickland prejudice, then, is too conjectural to warrant
habeas relief. See Harrington v. Richter, 562 U.S. 86, 112 (2011) (“The
likelihood of a different result must be substantial, not just conceivable.”). Thus,
as with his first claim, Mr. Fulgham fails to show the district court’s rejection of
his second claim is debatable or wrong; therefore, he is not entitled to a COA on
this second claim.
IV
For the foregoing reasons, we DENY Mr. Fulgham’s application for a COA
and DISMISS this matter.

ENTERED FOR THE COURT
Jerome A. Holmes
Circuit Judge
10

Case 4:17aas©001(?-OVeeBaWMC'CEHftMWntai7cBteiirill3SPafeND2Za<Ldr90I?a^a oPige 8 of 16
>***

UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF OKLAHOMA
HILLIARD A. FULGHAM,

)
)
)
)
)
)
)
)
)

Petitioner,
v.
SCOTT CROW, Director,
Respondent.

Case No. 17-CV-0010-CVE-FHM

JUDGMENT
This matter comes before the Court on petitioner’s 28 U.S.C. § 2254 habeas corpus petition
(Dkt. # 1). The issues having been duly considered and a decision having been rendered in the
opinion and order filed contemporaneously herewith,
IT IS THEREFORE ORDERED, ADJUDGED, AND DECREED thatjudgment is hereby
entered for respondent and against petitioner.
DATED this 31st day of December, 2019.

C„ V

—

CLAIRE V. EAG AN O
UNITED STATES DISTRICT JUDGE

~ 8

Case 4:17a^§OQl(7-e^Q96aMMC>eEKftMMnt[^cBrM^iySP(feMQ22aai(jfS01?^a oP&ge 9 of 16

UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF OKLAHOMA
HILLIARD A. FULGHAM,

)
)
)
)
)
)
)
)
)

Petitioner,
v.
SCOTT CROW, Director,

Respondent.

Case No. 17-CV-0010-CVE-FHM

OPINION AND ORDER
Now before the Court is petitioner’s 28 U.S.C. § 2254 habeas corpus petition (Dkt.# 1). For
the reasons below, the petition will be denied.
I.
This cases arises from petitioner’s murder convictions. The investigation began in 2006,
when police discovered that two women had been stabbed to death in a Tulsa apartment. See Dkt.
# 8-9, at 248; see also Dkt. #8-16, at 58. Police collected blood samples from bathroom tissue and
the apartment’s window ledge, but the DNA did not match any known suspects. See Dkt. # 8-10,
at 198-99. The case initially went cold. Id In 2009, petitioner contributed his DNA to the
Combined DNA Index System (“CODIS”) after he was incarcerated in Mississippi. See Dkt. #8-10,
at 299-300. His DNA could not be excluded from the Tulsa murder scene, and, according to a
forensic scientist, the statistical probability that an unrelated person contributed the blood on the
window ledge was at least 1 in 3.3 billion. See Dkt. # 8-11, at 55-56.
. i

Petitioner is incarcerated at the Lawton Correctional Facility (LCF), a private prison in
Lawton, Oklahoma. See Dkt. # 1 at 1. Scott Crow, Director of the Oklahoma Department
of Corrections, is therefore substituted in place of Joe Allbaugh as party respondent. See
Habeas Corpus Rule 2(a). The Clerk of Court shall note the substitution on the record.

• Case 4:17-C^01D?€2:V©(HHJa-CEy&BMfeht tDZxEiHadnit) USEKUdC^MMSOl^SCS #<^e 10 of 16

The State charged petitioner with two counts of first degree murder in violation of OKLA.
STAT. tit. 21, § 701.7. See Dkt. #8-17, at 26. Petitioner’s defense theory was that he fought with
the killer on the night of the crime; that petitioner bled into the killer’s face, eyes, and ears; and that
the killer then transferred petitioner’s blood to the murder scene. See Dkt. # 7-1, at 11. However,
petitioner’s ex-girlfriend testified that he admitted to stabbing the victims. See Dkt. # 8-9, at 281 -82.
After a five-day trial, the jury convicted petitioner on both counts. See Dkt. #8-12, at 88. The state
court sentenced petitioner to life imprisonment without parole, in accordance with the jury’s
recommendation. See Dkt. # 8-14, at 13.
Petitioner perfected a direct appeal with the Oklahoma Court of Criminal Appeals (OCCA).
See Fulgham v. State of Oklahoma, 400 P.3d 775 (Okla. Crim. App. 2016).2 The OCCA affirmed
the conviction and sentence. Id Petitioner filed the instant § 2254 petition (Dkt..# 1) on January
9, 2017. He raises two propositions of error:
(Ground 1): The state court violated the Interstate Agreement on Detainers Act (“IAD”) by
failing to commence a trial within 120 days of petitioner’s transfer to Oklahoma; and
(Ground 2): Trial counsel was ineffective for failing to pursue the IAD violation.
See Dkt. # 1, at 4, 6.
Respondent filed an answer (Dkt. # 7), along with copies of the state court record (Dkt. # 8).
Respondent concedes, and the Court finds, that petitioner timely filed his federal habeas petition and
exhausted state remedies. See Dkt. #7 at 2; see also 28 U.S.C. §§ 2244(d), 2254(b)(1)(A). However,
respondent contends that both claims fail on the merits. The matter is fully briefed and ready for
review.
Respondent failed to provide the OCCA ruling as part of the record. The Court, therefore,
takes judicial notice of the opinion on Westlaw.
2

Case 4:17-e^aOTG:V€KMHJOI-CKyfeBMbht Oft{Riifttililt) liBCKa^OOKMSDlF^gCB

11 of 16

II.
The Antiterrorism and Effective Death Penalty Act (AEDPA) governs this Court’s review
of petitioner’s habeas claims. See 28 U.S.C. § 2254. Relief is only available under the AEDPA
where the petitioner “is in custody in violation of the Constitution or laws or treaties of the United
States. 28U.S.C. §2254(a). However, because the OCCA already adjudicated petitioner’s claims,
this Court may not grant habeas relief unless he demonstrates that the OCCA’s ruling: (1) “resulted
in a decision that was contrary to . . . clearly established Federal law as determined by Supreme
Court of the United States,” 28 U.S.C. § 2254(d)(1);3 (2) “resulted in a decision that.. . involved
an unreasonable application ofclearly established Federal law,” id.; or (3) “resulted in a decision that
was based on an unreasonable determination of the facts” in light of the record presented to the state
court, id at § 2254(d)(2).
“To determine whether a particular decision is ‘contrary to’ then-established law, a federal
court must consider whether the decision ‘applies a rule that contradicts [such] law’ and how the
decision ‘confronts [the] set of facts’ that were before the state court.” Cullen v. Pinholster. 563 U.S.
170, 182 (2011) (alterations in original) (quotations omitted). When the state court’s decision
“identifies the correct governing legal principle in existence at the time, a federal court must assess
whether the decision ‘unreasonably applies that principle to the facts of the prisoner’s case.” Id.
(quotations omitted). Significantly, an “unreasonable application of’ clearly established federal law
As used in § 2254(d)(1), the phrase “clearly established Federal law” means “the governing
legal principle or principles” stated in “the holdings, as opposed to the dicta, of [the Supreme
Court’s] decisions as of the time of the relevant state-court decision.” Lockyer v. Andrade.
538 U.S. 63,71-72 (2003) (quoting Williams v, Taylor. 529 U.S. 362,412 (2000)); see also
House v. Hatch, 527 F.3d 1010, 1015 (10th Cir. 2008) (explaining that “Supreme Court
holdings—the exclusive touchstone for clearly established federal law—must be construed
narrowly and consist only of something akin to on-point holdings”).
3

Case 4:17-e®^aiD?0V©(RHJa-CEy&BMfetit (DfrEulediiiti DSDGIM^lzyBldlbSDl^gai

12 of 16

under § 2254(d)(1) “must be objectively unreasonable, not merely wrong.” White v. Woodall. 134
S. Ct. 1697, 1702 (2014) (quotations omitted). “[EJven clear error will not suffice.” Id. Likewise,
under § 2254(d)(2), “a state-court factual determination is not unreasonable merely because the
federal habeas court would have reached a different conclusion in the first instance.” Woodv. Allen,
558 U.S. 290, 301 (2010). The Court must presume the correctness of the state court’s factual
findings unless petitioner rebuts that presumption “by clear and convincing evidence.” 28 U.S.C.
§ 2254(e)(1).
Essentially, the standards set forth in § 2254 are designed to be “difficult to meet,”
Harrington v. Richter, 562 U.S. 86,102 (2011), and require federal habeas courts to give state court
decisions the “benefit of the doubt.” Woodford v. Visciotti. 537 U.S. 19,24 (2002). A state prisoner
ultimately “must show that the state court’s ruling ... was so lacking in justification that there was
an error well understood and comprehended in existing law beyond any possibility for fairminded
disagreement.” Richter, 562 U.S. at 103,
A. Violation of Federal Detainer Law (Ground 1)
Petitioner, who was transferred from Mississippi to Oklahoma to stand trial, seeks habeas
relief based on an alleged violation of the IAD. “The 1AD provides cooperative procedures for
transfers of prisoners between the federal and state jurisdictions that have adopted the interstate
compact.” Fulgham, 400 P.3d at 778. Article IV of the IAD provides that “trial shall be commenced
within... 120 days of the arrival of the prisoner in the receiving state.” Okla. STAT.tit. 22, § 1347.
Article V directs the state court to dismiss the indictment with prejudice if the trial is not timely
commenced. Id. Because petitioner’s trial commenced 565 days after his transfer to Oklahoma, he

4

Case 4:17-ea^)91D7(£VffMMHfa-CE;&5Mferit IDfltftitarifirt UEPgifMrypyRioUhqni RMjgfK tfl58}e 13 of 16

urges this Court to vacate his murder convictions and dismiss all charges with prejudice. See Dkt.
# 1, at 4, 13.
The OCCA considered this argument and determined that the IAD claim was waived. The
OCCA noted that the IAD “was never acknowledged or raised until [petitioner’s] formal sentencing
hearing-well after the completion of his jury trial. And, even then, the issue was raised by the trial
court - not [petitioner].” Fulgham, 400 P.3d at 77B.4 Therefore, the OCCA concluded that
“[petitioner] acquiesced to treatment inconsistent with the IAD’s time limits.” Id. at 779. The
opinion further noted that the protections of the IAD “had already terminated” at the time of
sentencing, when the issue first arose. Id. at 779-80.
Under federal law, the “speedy trial rights guaranteed by the IAD may be waived either
explicitly or by an affirmative request for treatment that is contrary to or inconsistent with those
Speedy trial rights.” New York v. Hill, 528 U.S. 110, 118 (2000). Tn other words, “lal defendant
* maY waive his IAD rights by agreeing fo a trial date that is later than the Agreement requires.”
United States v. McIntosh, 2013 WL 1490849, at * 11 (10th Cir. April 12, 2013) (citing Hill. 528
U. S. at 118).5 The Supreme Court reasoned that, without implicit waivers, defendants could “escape
justice by willingly accepting treatment inconsistent with the IAD’s time limits, and then recant[]
later on.” Hill, 528 at 118.
Further, even if the issue is preserved, habeas relief is not automatically warranted based on
a IAD violation. “[RJights created by the [IAD] are statutory, not fundamental, constitutional, or

It appears that the state court discovered Oklahoma’s IAD request for temporary custody in
the case file while preparing for the sentencing hearing. See Dkt # 7-1, at 12.
The Court cites this decision, and other unpublished decisions herein, as persuasive authority
See FED. R. APP. P. 32.1(a); 10th Cir. R. 32.1(A).
5

Case 4:17-e^31D?CV©(RMJQI-CKy&BFMbr»t {DfrKiMrivti UBCTOJMa/0KMSDl^gCB <{?^e 14 of 16

jurisdictional in nature.” Greathouse v. United States. 655 F.2d 1032,1034 (10th Cir. 1981). Only
“special circumstances” permit collateral attack of a conviction under § 2254 based on alleged
violations of the IAD. See Knox v. Wyoming Dept, of Corrections. 34 F.3d 964, 967 (10th Cir.
1994). Such circumstances exist where the alleged violation constitutes “a fundamental defect which
inherently results in a mmolete miscarriage of justice, [or] an omission inconsistent with the
rudimentary demands of fair procedure.” 10. at yo5 ^quoting Keed v, Bariev. M2 U.S. 339, 348
(1994)).
Having reviewed the record, the Court declines to grant habeas relief based on the IAD.
Petitioner concedes he did not raise the issue or request dismissal prior to trial. See Dkt. # 1, at 6;
see also Dkt. # 7-1, at 16. The OCCA, therefore, appropriately applied Hill in determining that
petitioner waived his rights under the IAD. More importantly, petitioner has not alleged “that his
ability to present a defense was prejudiced by the delay.” Reedv. Farley. 512 U.S. 339, 353 (1994)
(addressing IAD violations in the habeas context). He testified in his own defense, and the jury
elected not to believe his story that the killer bled into his face during a fight. The Court, therefore,
cannot find that the IAD violation constitutes a miscarriage ofjustice, and Ground 1 fails.
B. Ineffective Assistance of Counsel (Ground 2)
Petitioner next argues that trial counsel was ineffective for failing to timely seek dismissal
under the IAD. See Dkt. # 1 at 6. The OCCA rejected this claim under the two-prong test
announced in Strickland v, Washington, 466 U.S. 668 (1984). Under Strickland, a defendant must
show that his counsel’s performance was deficient and that the deficient performance was
prejudicial. 466 U.S. at 687. To satisfy the second prong, the “defendant must show that there is
a reasonable probability that, but for counsel’s unprofessional errors, the result of the proceeding

6

Case 4:17-aa^0tD?(£V©<KHJa-OT&5Mbftt Dftfiitartnft USCKfldtOeyKMgDlf^eCF (Rs^e 15 of 16
'

At

would have been different.” Hobdy v. Raemisch, 916 F.3d 863 (10th Cir. 2019) (quotations
omitted). The OCCA concluded that petitioner “fail[ed] to show Strickland prejudice.” explaining:
[Petitioner] essentially asks this Court to assume that had his trial counsel asserted
[petitioner’s] IAD rights prior to trial, his case would have been dismissed with prejudice.
. . . [D]uring the course of [petitioner’s] case, [petitioner] was appointed three separate
attorneys. We can only speculate what would have occurred if at some point one of these
three attorneys had raised the issue. Moreover, had [petitioned] flagged this issue some time
prior to trial, it is not unrealistic to assume the trial court could have complied with the IAD’s
requirements. Nor is it unrealistic to assume that the trial court would have advanced the date
ofthe trial or otherwise ensured a proper record was made establishing good cause for delay,
either of which would have satisfied Article IV(c).
Fulgham. 400 P.3d at 780.
Viewing the decision with double deference, Knowles v. Mirzavance. 556 U.S. Ill, 123
(2009), the Court agrees that petitioner’s ineffective-assistance claim is too speculative to warrant
relief. The record reflects that: (i) petitioner sought some of the continuances and changed counsel
multinle times: fiO the prosecutor had difficulty locating an out of state witness: (iii) additional DNA
testing was necessary; and (iv) a detective suttered a death in the family. See Dkt. #8-17, at 10-11;
77; 114; and 118. Under these circumstance^, uie state court may very well have overruled any IAD
objection and made a finding of “good cause,” which tolls the 120-day period. See Okla. Stat. tit.
22. § J 347. Petitioner has also not demonstrated a reasonable probability that the trial court would
nave dismissed the case with prejudice, rather than simply advancing the trial date* Petitioner was
accused of brutally stabbing two women in their home, and such charges are not dismissed lightly
Therefore, the Court cannot find a substantial likelihood of a different outcome, had counsel raised
the IAD violation. See H_arrington v. Richter. 562 U.S. 86, 112 (2011) (“The likelihood of a
different result must be substantial, not just conceivable”). The OCCA appropriately rejected
petitioner’s ineffective-assistance claim (Ground 2), and the petition (Dkt. # 1) must be denied.

7

Case 4:17-C®^91D?GV©(RHia-CEy&5Mbtit Qfflftihadiivb

tflc^e 16 of 16

» <.

III.
Habeas Corpus Rule 11 requires “[t]he district court [to] . . . issue or deny a certificate of
appealability when it enters a final order adverse to the applicant.” A certificate may only issue “if
the applicant has made a substantial showing of the denial of a constitutional right.” 28 U.S.C. §
2253(c)(2). When the district court rejects the merits of petitioner’s constitutional claims, he must
make this showing by “demonstrat[ing] that reasonable jurists would find the district court’s
assessment of the constitutional claims debatable or wrong.” Slack v. McDaniel 529 U.S. 473,484
(2000). For the reasons discussed above, petitioner has not made the requisite showing on any of
his claims. The Court therefore denies a certificate of appealability.
ACCOW)INGLY, IT IS HEREBY ORDERED that;
1.

The Clerk shall substitute Scott Crow in place of Joe Allbaugh as respondent.

2.

The petition for a writ of habeas corpus (Dkt. # 1) is denied.

3.

A certificate of appealability is denied.

4.

A separate judgment will be entered herewith.

DATED this 31st day of December, 2019.

CLAIRE V, EAGAN Q
UNITED STATES DISTRICT JUDGE

8

